TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Field Assistance Office Has Taken
                       Appropriate Actions to Plan for the
                  2006 Filing Season, but Challenges Remain
                 for the Taxpayer Assistance Center Program



                                            March 2006

                              Reference Number: 2006-40-067




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 31, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Field Assistance Office Has Taken
                                 Appropriate Actions to Plan for the 2006 Filing Season, but Challenges
                                 Remain for the Taxpayer Assistance Center Program
                                 (Audit # 200540037)

 This report presents the results of our review of Wage and Investment (W&I) Division Field
 Assistance Office planning for the 2006 Filing Season.1 The overall objectives of this review
 were to determine whether the Field Assistance Office adequately planned for the 2006 Filing
 Season and considered and accounted for the effects of Hurricanes Katrina and Rita during filing
 season preparations.
 This review was conducted in conjunction with the President’s Council on Integrity and
 Efficiency (PCIE) as part of its examination of relief efforts provided by the Federal Government
 in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the report has been
 forwarded to the PCIE Homeland Security Working Group, which is coordinating the Inspectors’
 General reviews of this important subject.

 Synopsis
 Most taxpayers’ only contact with the Internal Revenue Service (IRS) is during the filing season.
 During these months, millions of taxpayers seek assistance in filing their tax returns by calling
 the IRS on its toll-free telephone lines, walking into local offices called Taxpayer Assistance
 Centers (TAC), or accessing the IRS’ public Internet site (IRS.gov). Although more taxpayers
 obtain assistance by calling the toll-free telephone lines or accessing IRS.gov, over 7 million
 taxpayers chose to seek face-to-face assistance at the TACs during Fiscal Year 2005.


 1
     The period from January through mid-April when most individual income tax returns are filed.
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program


In its Fiscal Year 2006 Program Letter,2 the Field Assistance Office states it expects to meet all
its Fiscal Year 2006 challenges, including the mandate from Congress to keep all TACs open and
the need to provide new services to taxpayers affected by the recent Hurricanes. Recognizing
and communicating these challenges is a positive first step to delivering a successful filing
season. The Program Letter appropriately tied Field Assistance Office initiatives and priorities
to the W&I Division Strategy and Program Plan Fiscal Years 2006–2007 and established the
policies, goals, and objectives for Fiscal Year 2006.
                                                The Field Assistance Office also appropriately
                                                considered Hurricanes Katrina and Rita issues
    • All employees affected by the
       Hurricanes have been accounted for.      when planning for the 2006 Filing Season. In
                                                addition, the Field Assistance Office added
    • Alternate space for offices in affected   services for the 2006 Filing Season to help
       areas has been obtained.                 lessen taxpayer burden. Taxpayers affected by
                                                Hurricanes Katrina and Rita will be treated as
    • All TACs in impacted areas are open       meeting extreme hardship criteria, which will
       and operational.
                                                allow affected taxpayers to request and receive
                                                transcripts of prior year tax returns instead of
having to order them and wait for delivery. The scope of tax law topics in which assistors are
trained was expanded to provide assistance for taxpayers with questions about casualty losses.
Taxpayers affected by the Hurricanes will also be able to have current and prior year tax returns
prepared even though their income levels exceed the income requirement.
The Field Assistance Office has a plan to train all employees and ensure all tools are updated. It
developed a comprehensive training strategy to provide TAC managers and employees with
orientation, technical and core competency training, and ongoing skill development.
Additionally, the major tools used by the assistors have been updated with the new laws and
procedures. However, five tax law topics added to the scope of assistors’ responsibilities in the
2005 Filing Season were still shown as out-of-scope in the Internal Revenue Manual (the manual
containing the IRS’ internal guidelines).3




2
  The Field Assistance Fiscal Year 2006 Program Letter, dated October 20, 2005, provides a synopsis of the Field
Assistance Office’s prior year accomplishments; highlights important aspects of the procedures it follows in
delivering its services; and provides a brief overview of planned program, systems, training, and communication
initiatives for the upcoming fiscal year. This Letter is posted on the Field Assistance Office’s Intranet for all
Field Assistance Office employees.
3
  If the taxpayer’s question is not within scope, the assistor is advised to refer the taxpayer to the IRS toll-free
telephone lines.
                                                                                                                       2
                  The Field Assistance Office Has Taken Appropriate Actions
                   to Plan for the 2006 Filing Season, but Challenges Remain
                          for the Taxpayer Assistance Center Program


Challenges remain for the Field Assistance Office for the 2006 Filing Season. As of
                                        December 1, 2005, the Field Assistance Office
                                        Headquarters had identified 47 TACs with critical
        Forty-seven TACs have           staffing shortages. The Field Assistance Office does not
       critical staffing shortages.
                                        maintain an overall list or database of TACs providing
      Inconsistent and inaccurate       the number of assistors, the hours and days of operation,
    information prevented us from       and services offered at each TAC. We compiled and
    determining the overall impact      analyzed information from separate lists and found the
     staffing shortages could have      data to be unreliable, inconsistent, and inaccurate. We
       on the 2006 Filing Season.
                                        could not determine which TACs do not accept cash
                                        payments or do not prepare Federal or State tax returns,
nor could we determine what criteria were used to decide if any exceptions to offering these
services were appropriate.
Without a sufficient system in place to provide the     The Field Assistance Office does not
management information it needs to oversee the         currently have sufficient management
TAC Program, the Field Assistance Office cannot        information to determine which TACs
provide adequate oversight to determine if it is        are not offering standard services or
                                                            standard hours of operation.
meeting its goals and objectives. Further, it cannot
advise taxpayers when TAC services are limited,
to ensure taxpayers do not make unnecessary trips to TACs that do not provide the services
needed. However, the Field Assistance Office is working on a new management information
system.

Recommendations
The Commissioner, W&I Division, should ensure the Internal Revenue Manual is updated to
reflect a current list of tax law topics within the scope of employee training. In addition, the
Commissioner, W&I Division, should develop consistent criteria for granting exceptions to
standard services and update the Internal Revenue Manual with the criteria and procedures for
obtaining the exceptions. The Commissioner, W&I Division, should modify or develop a
management information system to provide an overview of the TAC Program and a control to
ensure it provides the appropriate services to meet the Field Assistance Office’s objectives
and goals. Once the information on the TACs’ hours of operation and services is captured
and controls are in place to ensure the data are accurate and current, the Commissioner,
W&I Division, should provide this information to taxpayers that call the IRS toll-free telephone
lines or access IRS.gov.




                                                                                                   3
                  The Field Assistance Office Has Taken Appropriate Actions
                   to Plan for the 2006 Filing Season, but Challenges Remain
                          for the Taxpayer Assistance Center Program



Response
IRS management agreed with all of our recommendations. The IRS updated the TAC Scope of
Services provided in the Internal Revenue Manual to reflect the current list of tax law topics and
plans an update to provide greater specificity on the criteria and procedures for obtaining
exceptions. The IRS.gov web site is the official system used to capture open TACs, hours of
operation, and services provided. The IRS controls accuracy by requiring the Area Director to
provide prior approval for any change request. While the services provided at each TAC are
standardized, there are three exceptions (receipt of cash payments, need-based return preparation,
and State return preparation). The IRS modified the list of services for each TAC shown on
IRS.gov to indicate when it is not providing one of these three services. Additionally, taxpayers
accessing IRS.gov are provided TAC hours of operation and services provided. Taxpayers are
also informed of any services the IRS does not offer in a TAC because of an approved exception.
This same information is available to the assistors who serve taxpayers on the IRS toll-free
telephone lines. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                4
                         The Field Assistance Office Has Taken Appropriate Actions
                          to Plan for the 2006 Filing Season, but Challenges Remain
                                 for the Taxpayer Assistance Center Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Fiscal Year 2006 Program Letter Appropriately
          Identified and Communicated Policies, Goals, and Objectives
          to Field Assistance Office Employees ..........................................................Page 4
          The Field Assistance Office Appropriately Considered
          Hurricanes Katrina and Rita Issues When Planning
          for the 2006 Filing Season ............................................................................Page 5
          The Field Assistance Office Has a Plan to Train All
          Employees and Ensure All Tools Are Updated ............................................Page 7
                    Recommendation 1:........................................................Page 8

          Challenges Remain for the Field Assistance Office
          for the 2006 Filing Season ............................................................................Page 9
                    Recommendations 2 and 3: ..............................................Page 15

          The Field Assistance Office Does Not Ensure Taxpayers
          Know When Taxpayer Assistance Centers Limit Services ..........................Page 16
                    Recommendation 4:........................................................Page 18


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Management’s Response to the Draft Report ......................Page 23
                   The Field Assistance Office Has Taken Appropriate Actions
                    to Plan for the 2006 Filing Season, but Challenges Remain
                           for the Taxpayer Assistance Center Program




                                      Background

Most taxpayers’ only contact with the Internal Revenue Service (IRS) is during the filing season,
from January through mid-April when nearly all individual taxpayers file their tax returns.
During these months, millions of taxpayers seek assistance filing their tax returns by calling the
IRS on its toll-free telephone lines, walking into local offices called Taxpayer Assistance Centers
(TAC), or accessing the IRS’ public Internet site (IRS.gov). Although more taxpayers obtain
assistance by calling the toll-free telephone lines or accessing IRS.gov, over 7 million taxpayers
chose to seek face-to-face assistance at the TACs during Fiscal Year 2005, either because their
tax issues were too complicated to be resolved over the telephone or they were more comfortable
speaking to an assistor in person.
The Field Assistance Office in the Wage and Investment (W&I) Division Customer Assistance,
Relationships, and Education (CARE) function has
primary responsibility over the TACs. The Field               During Fiscal Year 2005,
Assistance Office currently has 400 TACs located in          TAC   assistors helped over
5 nationwide geographical Areas. IRS employees             1 million taxpayers with tax law
                                                           questions, gave out more than
that work in the TACs assist customers by                 1 million forms and publications,
interpreting tax laws and regulations, preparing           and helped prepare more than
certain individual tax returns, resolving inquiries on            380,000 tax returns.
taxpayer accounts, accepting payments, and
providing various other services designed to
minimize the burden on taxpayers in satisfying their tax obligations.
The complexity of the tax law and the need to assist millions of taxpayers while providing the
wide range of face-to-face services taxpayers have come to expect from the TACs presents
challenges for the IRS and its TAC employees. For example, TAC employees are not trained to
answer questions on all tax topics. Instead, they are trained on specific tax topics and are
authorized to answer only those questions within this expertise. These are called in-scope
questions; they include specific tax law topics related to lines on the U.S. Individual Income Tax
Return (Form 1040), such as income, filing status, exemptions, deductions, and credits. More
complex tax issues are considered out-of-scope questions. Assistors refer taxpayers to the IRS
toll-free telephone lines or submit the out-of-scope questions in writing to subject-matter experts
via the Internet or through correspondence. The TACs generally do not offer taxpayer account
transcripts to customers and limit the preparation of tax returns to those under a certain income
limit ($37,000 for Calendar Year 2006).
The TACs expect increased traffic during filing seasons as taxpayers seek assistance in
preparing their tax returns. Planning for the filing seasons is essential to ensure taxpayers have
the information and tools they need to comply with the tax laws. For example, before each filing

                                                                                            Page 1
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program



season, the Field Assistance Office must ensure the TACs are sufficiently staffed, all staff are
trained, the TACs are stocked with current tax forms and publications, and tax return preparation
software is installed on all computers. The Field Assistance Office must also determine which
services to offer and if any alternative sites1 are needed to meet taxpayer demand. In addition,
the IRS’ decision to focus more resources on compliance activities has limited resources
available for customer service.
To reduce costs, the IRS’ current strategy is to reduce face-to-face assistance and encourage
taxpayers to use other services, such as the telephone and IRS.gov. As such, it is reducing the
resources committed to the Field Assistance Office and reducing services in the TACs. In
May 2005, the IRS announced plans to close 68 TACs by the beginning of Fiscal Year 2006. In
announcing the planned closures, the IRS stated that taxpayers will have continued access to tax
forms, information, and tax preparation through IRS.gov, telephone assistance, and volunteer tax
return preparation. The IRS was required to postpone the plans when a law was passed stating:
        None of the funds appropriated or otherwise made available in this or any other Act or
        source to the Internal Revenue Service may be used to reduce taxpayer services as
        proposed in Fiscal Year 2006 until the Treasury Inspector General for Tax
        Administration completes a study detailing the impact of such proposed reductions on
        taxpayer compliance and taxpayer services, and the Internal Revenue Service’s plans for
        providing adequate alternative services, and submits such study and plans to the
        Committees on Appropriations of the House of Representatives and the Senate for
        approval.2
While closures have been postponed for Fiscal Year 2006, the IRS still considers closing the
TACs as a viable option to reduce operational costs. In anticipation of a decrease in the number
of TACs, many TAC employees found other jobs in the IRS, creating vacancies in the TACs.
The IRS has a Disaster Assistance and Emergency Relief Program to provide administrative tax
relief to taxpayers and tax practitioners affected by a major disaster or emergency so they can
meet their Federal tax obligations for filing tax returns and/or paying taxes without being
penalized. The IRS has taken numerous actions to provide broad relief to affected taxpayers.
This includes postponing deadlines for filing and payment, providing relief from interest and
penalties, and waiving some low-income housing tax credit rules. It also waived the usual fees
and expedited requests for copies of previously filed tax returns for affected taxpayers that need
them to apply for benefits or to file amended tax returns to claim casualty losses.




1
  An alternate site is a non-IRS location where IRS employees provide limited services; for example, providing
forms and answering tax law questions.
2
  Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
                                                                                                           Page 2
                         The Field Assistance Office Has Taken Appropriate Actions
                          to Plan for the 2006 Filing Season, but Challenges Remain
                                 for the Taxpayer Assistance Center Program



In addition, the Katrina Emergency Tax Relief
Act of 2005 (KETRA),3 enacted on
                                                        A total of 179 counties and parishes were
September 21, 2005, created many tax code                 declared a “Presidential Disaster Area”
changes to benefit Hurricane Katrina victims.            related to Hurricane Katrina–22 counties
The KETRA applies to people affected by                     in Alabama, 11 counties in Florida,
Hurricane Katrina and to those taxpayers helping        64 parishes in Louisiana, and 82 counties
victims of the disaster. For example, the               in Mississippi. For Hurricane Rita, a total
                                                        of 254 counties in Texas and 64 parishes
KETRA provides for suspension of certain               in Louisiana were declared disaster areas.
limitations on personal casualty losses and an
additional exemption of $500 for each
Hurricane Katrina-displaced individual housed in a taxpayer’s home. In addition, for taxable
years beginning in 2005 or 2006, taxpayers do not lose dependency exemptions or child credits
or experience a change of filing status by reason of temporary relocations after Hurricane
Katrina.
This review was performed at the Field Assistance Office, CARE, W&I Division Headquarters
in Atlanta, Georgia, during the period August through December 2005. We ended testing for this
review as of December 1, 2005, to timely report our results. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objectives,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
    Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).

                                                                                              Page 3
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program




                                      Results of Review

The Fiscal Year 2006 Program Letter Appropriately Identified and
Communicated Policies, Goals, and Objectives to Field Assistance
Office Employees
In its Fiscal Year 2006 Program Letter,4 the Field Assistance Office states it expects to more than
meet all Fiscal Year 2006 challenges, including the mandate from Congress to keep all TACs
open in Fiscal Year 2006 and the need to provide new services to taxpayers affected by the
recent Hurricanes. Recognizing and communicating these challenges is a positive first step to
delivering a successful filing season.
The Program Letter appropriately tied Field Assistance Office initiatives and priorities to the
W&I Division Strategy and Program Plan Fiscal Years 2006–2007 and established the policies,
goals, and objectives for Fiscal Year 2006. Figure 1 provides the goals for some specific
measures.
                           Figure 1: Field Assistance Office Measures

                                                                  Fiscal Year 2005          Fiscal Year 2006
     Balanced Measures                                           Revised Projections             Goals

     Field Assistance Accuracy of Tax Law Contacts                     Baseline                   80%
     Field Assistance Accuracy of Accounts Contacts                      N/A                    Baseline
     Field Assistance Accuracy of Return Preparation                     N/A                    Baseline
     Customer Satisfaction                                               89%                      91%
     Customer Dissatisfaction                                            6%                        5%
     Field Assistance Employee Satisfaction                              50%                      51%
    Source: Field Assistance Office Fiscal Year 2006 Program Letter. N/A = not applicable.




4
 The Field Assistance FY 2006 Program Letter, dated October 20, 2005, provides a synopsis of the Field Assistance
Office’s prior year accomplishments; highlights important aspects of the procedures it follows in delivering its
services; and provides a brief overview of planned program, systems, training, and communication initiatives for the
upcoming fiscal year. This Letter is posted on the Field Assistance Office’s Intranet for all Field Assistance Office
employees.
                                                                                                             Page 4
                   The Field Assistance Office Has Taken Appropriate Actions
                    to Plan for the 2006 Filing Season, but Challenges Remain
                           for the Taxpayer Assistance Center Program



The Program Letter highlights changes in procedures or policies from prior years. For example,
it advises TAC employees of the changes in procedures used to assist taxpayers affected by
Hurricanes Katrina and Rita. The Field Assistance Office Director also used the Program Letter
to emphasize issues requiring special attention.
Highlighted issues included ensuring hours of operation     The Program Letter notes, “IRS.gov
are accurate on IRS.gov; the Letter states it is a priority plays a key role in ensuring that our
to ensure taxpayers have complete and accurate                customers know where they can
information relative to the address, hours of operation,               locate a TAC.”
and lunch closing time for each TAC.
In addition, the Field Assistance Filing Season Readiness Tactical Plan was prepared to identify
standard prefiling season actions, as well as to incorporate areas for improvement as
recommended by the Treasury Inspector General for Tax Administration (TIGTA) and the
Government Accountability Office. The Tactical Plan includes 21 critical actions that, for the
most part, were to be completed by January 12, 2006. The Field Assistance Office will monitor
adherence to the Tactical Plan by performing field visitation reviews.
Further, the Program Letter states Filing Season Readiness Reviews are to be completed in every
TAC, using the Field Assistance Readiness and Program Checklist, and the results of these
reviews will be analyzed to ensure the completeness of the Checklists and to track any recurring
issues. We were unable to review the Checklists because they were not due into Field Assistance
Office Headquarters until December 1, 2005, the date our audit testing ended.

The Field Assistance Office Appropriately Considered Hurricanes
Katrina and Rita Issues When Planning for the 2006 Filing Season
The CARE function developed and used a CARE Hurricane Impact Action Plan to ensure all
issues relating to Hurricanes Katrina and Rita were identified and considered. This Action Plan
includes 10 critical actions spread among the CARE function’s Stakeholder Partnerships,
Education, and Communication Office; Media and Publications Office; and Field Assistance
Office.
Both the CARE Hurricane Impact Action Plan and the Field Assistance Filing Season Readiness
Tactical Plan identified critical issues relating to Hurricanes Katrina and Rita. For example:
•   Employee Issues – Ensured all employees affected by the Hurricanes were accounted for,
    alternate space for offices in affected areas was found, and all TACs in impacted areas were
    open and operational.
•   Staff/Resources – Determined critical staffing needs and planned for recruiting and hiring.
    At the time of our testing, the Field Assistance Office was working with the W&I Division
    Research Office to analyze information on the locations of taxpayers from the Federal
    Emergency Management Agency’s database to better estimate workload impact.

                                                                                           Page 5
                  The Field Assistance Office Has Taken Appropriate Actions
                   to Plan for the 2006 Filing Season, but Challenges Remain
                          for the Taxpayer Assistance Center Program



•   Data Collection/Workload Impact – Established five new codes to track and monitor actual
    disaster-related customer traffic. This issue also explored options for providing expanded
    service other than hiring assistors.
•   Training Development and Delivery – Reviewed legislation and policy to determine which
    training materials and guidelines need to be updated with new laws and procedures.
•   TAC Services – Issued directives to employees on new procedures and provided updates as
    necessary, including how to assist taxpayers that no longer have acceptable means of
    identification and have to self identify.
Discussions with Field Assistance Office executives and reviews of the CARE Hurricane Impact
Action Plan and the Field Assistance Filing Season Readiness Tactical Plan indicated that critical
actions are on course to be completed during the 2006 Filing Season. The CARE function and
Field Assistance Office Directors meet weekly with TAC Program staff, prioritizing actions and
discussing the progress for the various action items. Their priority is to balance workload and
staffing.

The Field Assistance Office added services for the 2006 Filing Season to help
lessen taxpayer burden
Taxpayers affected by Hurricanes Katrina and Rita will be treated as meeting extreme hardship
criteria. This will allow affected taxpayers to request and immediately receive transcripts of
prior year tax returns instead of having to order them and wait for delivery. The Field Assistance
Office has also expanded the scope of tax law topics to provide assistance for taxpayers with
questions about casualty losses, a more complex topic than is normally handled in the TACs.
In addition, taxpayers affected by the Hurricanes will be able to have current and prior year tax
returns prepared even though their income levels exceed the income requirement. Although the
Field Assistance Office waived the need-based requirement (the income limit) for those
taxpayers affected by the Hurricanes, not all tax returns can be prepared at the TACs. The TACs
will prepare only basic individual income tax returns, including:
•   Joint returns when both the taxpayer and spouse are present. There is a Military Exception
    that one spouse can sign for the spouse who is in a combat zone/qualified hazardous duty
    area.
•   U.S. Individual Income Tax Return (Forms 1040 and 1040A), Income Tax Return for Single
    and Joint Filers With No Dependents (1040EZ), and Amended U.S. Individual Income Tax
    Return (1040X) (both current and prior years), including the following schedules:
    Schedule A–Itemized Deductions and Schedule B–Interest & Ordinary Dividends
    (Schedules A&B) (interest only), Net Profit From Business (Schedule C-EZ), Earned Income
    Credit (Schedule EIC), Credit for the Elderly or the Disabled (Schedule R), and
    Self-Employment Tax (Schedule SE).

                                                                                           Page 6
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program



Current plans call for TAC employees to seek assistance from employees in the Small
Business/Self-Employed Division when a taxpayer asks for assistance in preparing a tax return
claiming a casualty loss.

The Field Assistance Office Has a Plan to Train All Employees and
Ensure All Tools Are Updated
The Field Assistance Office developed a comprehensive training strategy to provide
TAC managers and employees with orientation, technical and core competency training, and
ongoing skill development. This training strategy is comprised of the following three key
components:
•   Technical Assessment Battery – includes assessing core competencies (knowledge, skills,
    and abilities) to determine employee training needs in tax law, notices, accounts, and
    compliance.
•   Self-Directed Learning Modules – includes 30-minute training modules on topics employees
    have already received training on and is used to refresh employees’ knowledge and reinforce
    use of existing tools.
•   Continuing Professional Education – includes both classroom and online training between
    October 2005 and January 2006. The 24 hours of classroom sessions include lessons on use
    of the Publication Method Guide,5 legislative changes, and collection and tax law topics.
    This includes modules related to the KETRA. The online sessions consist of tax law topics
    selected based on TIGTA and quality review results.
Each of the five Area training coordinators6 worked with TAC managers to identify employees’
training needs and develop a training plan to ensure employees have the required technical
training prior to the start of the 2006 Filing Season. At the time of our audit testing, only the
Draft Training Plans were available for review. However, they showed training sessions had
been scheduled for all employees. Furthermore, current procedures require training coordinators
to certify that all employees have received the required training.
A TIGTA auditor attended a Field Assistance Office training session and noted classroom
material appropriately covered topics outlined in the Program Letter. Throughout each lesson,
instructors stressed the importance of providing accurate responses to taxpayers and the
mandatory use of the Publication Method Guide. The classroom instruction also included

5
  The Publication Method Guide is a tool that provides Field Assistance Office employees with an interview
technique, predetermined questions, and specific publication references for certain tax law topics. Use of the
Publication Method Guide is mandatory and is designed to lead the employee to a correct answer for selected tax
law topics.
6
  The Field Assistance Office is divided into five geographical Areas. Each Area has a Director, a training
coordinator, and analysts.
                                                                                                          Page 7
                   The Field Assistance Office Has Taken Appropriate Actions
                    to Plan for the 2006 Filing Season, but Challenges Remain
                           for the Taxpayer Assistance Center Program



lessons on tax law changes, the KETRA, Publication Method Guide updates, new procedures for
providing tax documents for taxpayers impacted by recent disasters, and the in-scope tax law
topic “casualty and theft losses.”

The Field Assistance Office has generally updated the major tools used by
assistors
In addition to the Program Letter, the Field Assistance Office has three major tools its employees
use to provide tax assistance: the Internal Revenue Manual (the manual containing the IRS’
internal guidelines), the Publication Method Guide, and the commercial tax return preparation
software. The two Action Plans discussed earlier included action items to ensure all three are
current for Fiscal Year 2006. The Internal Revenue Manual has been updated with the new laws
and new procedures. A review of the plans to update the Publication Method Guide showed it
will be updated with the latest tax law changes. We were unable to review the commercial tax
return software because at the time of our testing it was not available from the vendor.
Although the Internal Revenue Manual was updated on October 1, 2005, five tax law topics
added to the Field Assistance Office’s in-scope tax law topics in the 2005 Filing Season were
still shown as out-of-scope topics. These five topics were overlooked when the updates were
made for Fiscal Year 2005.
Assistors are trained and expected to be knowledgeable in 318 tax law topics with 395 subtopics.
Assistors frequently refer to the Internal Revenue Manual to determine if a taxpayer’s question is
within the scope of services. If the taxpayer’s question is not within scope, the assistor is
advised to refer the taxpayer to the IRS toll-free telephone lines. When assistor tools are not
accurate, the risk is increased that taxpayers will be incorrectly advised to call the IRS toll-free
telephone lines despite their preference for face-to-face assistance.

Recommendation
Recommendation 1: The Commissioner, W&I Division, should ensure the Internal Revenue
Manual is updated to reflect a current list of tax law topics within the scope of employee training.
       Management’s Response: IRS management agreed with this recommendation,
       which we provided during the course of the audit, and took immediate corrective action.
       The Scope of Services provided in Internal Revenue Manual 21.3.4, Exhibit 1, was
       updated on the Servicewide Electronic Research Program to reflect the current list of tax
       law topics.




                                                                                             Page 8
                  The Field Assistance Office Has Taken Appropriate Actions
                   to Plan for the 2006 Filing Season, but Challenges Remain
                          for the Taxpayer Assistance Center Program



Challenges Remain for the Field Assistance Office for the
2006 Filing Season
Not all TACs will be fully staffed during the 2006 Filing Season. In addition, not all TACs will
provide standard services or standard hours of operation, from 8:30 a.m. to 4:30 p.m., Monday
through Friday. The IRS’ decision to focus more resources on compliance activities has limited
resources available for the TAC Program, and the Field Assistance Office does not have the
resources to offer unlimited services or to have all 400 TACs open the standard hours of
operation. In addition, the Field Assistance Office lacks reliable management information to
determine which TACs are not offering standard services or standard hours of operation. This
inhibits the Field Assistance Office from providing adequate oversight and determining if it is
reaching its program goals and objectives.

Not all TACs will be fully staffed during the 2006 Filing Season
Staffing shortages present the Field Assistance Office with a significant challenge for the
2006 Filing Season. The uncertainty around the TAC closures created critical vacancies as
TAC employees left the TAC Program for other jobs in the IRS. As of December 1, 2005, the
Field Assistance Office Headquarters had identified 47 TACs with critical staffing shortages.
Five vacancies are in TACs located in areas impacted by Hurricanes Katrina and Rita–three in
Louisiana and two in Texas. The shortages come at a time when taxpayer visits in these areas
may be increasing and the Field Assistance Office is adding services to help reduce the burden
on taxpayers affected by the Hurricanes.
The IRS has reported fewer taxpayers are seeking assistance at the TACs. Its strategy is to
reduce face-to-face assistance and encourage taxpayers to use lower cost methods to obtain tax
assistance, such as the toll-free telephone lines and IRS.gov. This may be one reason fewer
taxpayers are choosing to seek assistance at the TACs. Figure 2 shows the decline in taxpayer
contacts for the last 3 fiscal years.




                                                                                          Page 9
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program



                          Figure 2: Taxpayer Contacts at the TACs for
                                    Fiscal Years 2003–2006

                        4,000,000

                        3,000,000

                        2,000,000

                        1,000,000

                                 0
                                     Tax Returns    Tax Law      Accounts        Forms         Other
                                      Prepared      Contacts     Contacts       Contacts     Contacts*
                 Fiscal Year 2003      665,868     1,719,210     3,255,018      1,843,886    1,480,563
                 Fiscal Year 2004      476,784     1,433,056     2,458,859      1,780,573    1,542,787
                 Fiscal Year 2005      380,385     1,165,091     2,531,552      1,556,794    1,359,179
                 Fiscal Year 2006*     342,900      997,660      2,583,360      1,182,400    1,098,980

                       Fiscal Year 2003   Fiscal Year 2004   Fiscal Year 2005   Fiscal Year 2006*
             Source: IRS management information reports and the Fiscal Year 2006 Program Letter.
             * = Fiscal Year 2006 figures are projections. “Other Contacts” include, for example, assisting
             taxpayers that call the TACs or need help with the U.S. Departing Alien Income Tax Statement
             (Form 2063), date stamping tax returns brought in by taxpayers, helping taxpayers with general
             information such as addresses and directions to other IRS offices or other Federal Government
             agencies, and responding to unsolicited correspondence.

Consistent with the declines in taxpayer contacts and declining budgets, the IRS has been
decreasing Full-Time Equivalents7 in the Field Assistance Office.
The budget and Full-Time Equivalents are the most important factors the Field Assistance Office
considers when developing the Fiscal Year 2006 Workplan. During the annual Workplan
preparation process, Field Assistance Office analysts identified 79 vacancies in 62 TACs.
However, only 55 vacancies in 47 TACs are considered critical. The Director, CARE, defined a
critical vacancy as one that must be filled to ensure a TAC remains open and complies with the
recent legislation that stated none of the Fiscal Year 2006 funds appropriated may be used to
reduce taxpayer services until certain actions are completed.8


7
  A Full-Time Equivalent is a measure of labor hours equal to 8 hours multiplied by the number of workdays in a
fiscal year. This usually equates to 1 person working 1 year but can equate to 2 people working one-half of a year
each, 2 people working part time for a full year, 3 people working one-third of a year each, etc.
8
  Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
                                                                                                           Page 10
                         The Field Assistance Office Has Taken Appropriate Actions
                          to Plan for the 2006 Filing Season, but Challenges Remain
                                 for the Taxpayer Assistance Center Program



Figure 3 provides the results of the analysis and a breakdown of critical staff shortages identified
by position. Managers are not assigned to one TAC and could have employees in multiple
TACs.
                                   Figure 3: Critical Staffing Shortages

                            Position         Critical Vacancies          Number of TACs
                            Managers                   4                        2
                            Secretaries               15                      15
                            Assistors                 26                      23
                            Screeners                 10                       7
                            Totals                    55                      47
                          Source: Field Assistance Office Fiscal Year 2006 Workplan.

Not all critical vacancies will be filled. Sixteen TACs currently have no assistors specifically
assigned. The CARE function and Field Assistance Office Directors advised us that they have
been able to keep these offices open by filling the critical vacancies using Full-Time Equivalents
from other offices within the CARE function and they will continue to do so as needed. They
further explained that all TACs will be staffed for the upcoming filing season and fiscal year as
required by the law, although some TACs may have reduced services or hours of operation due
to the staffing shortages. In addition to using employees from other offices as needed,
management is also planning to rehire seasonal employees.9 Rehiring seasonal employees would
allow the Field Assistance Office to fill critical vacancies more quickly because the seasonal
employees would require less orientation and training.
In past years, the Field Assistance Office has moved away from using seasonal employees.
Instead, it has moved toward having a permanent workforce throughout the year. During the
filing season, employees are fully engaged with assisting taxpayers in complying with the law
and preparing their tax returns. For the remaining part of the year, some TAC employees assist
with enforcement. However, for the 2006 Filing Season, rehiring seasonal employees may help
fill critical vacancies. If the Field Assistance Office is unable to fill these critical vacancies,
some employees will travel between TACs to ensure all TACs remain open.
Because of the staffing shortages, the Field Assistance Office is planning to offer only one
alternate site during the 2006 Filing Season. This site will only be open 1 day–the final day to
file individual tax returns. There are no plans for alternate sites in the States significantly
affected by Hurricanes Katrina and Rita: Alabama, Florida, Louisiana, Mississippi, and Texas.
However, the Field Assistance Office will be monitoring taxpayer traffic to determine if the
impact of recent disasters is affecting taxpayer service. This will allow the Field Assistance


9
    Employees temporarily hired to work part of a fiscal year, e.g., during the filing season.
                                                                                                 Page 11
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program



Office to shift assistors among TACs when possible. For example, CARE function employees
have relocated from New Orleans to other cities in Louisiana. These employees would be
available to help staff the TACs in New Orleans, Baton Rouge, or Lafayette as needed.
The Field Assistance Office does plan to use 38 kiosks located in 21 States.10 Kiosks are
designed for self-service with simple, user-friendly touch screens. The kiosks are located in both
IRS and non-IRS buildings and will generally be located in the same sites as in prior years.
However, six kiosks are to be relocated because non-IRS employees are no longer willing to
volunteer custodial oversight. As of December 2, 2005, the Field Assistance Office had
relocated three of the six kiosks. The Field Assistance Office has not considered moving the
kiosks to a TAC in one of the disaster impacted areas, and currently no plans are being made to
move any kiosks to the five disaster-affected States.

The Field Assistance Office lacks reliable management information needed to
provide an accurate overview of the TAC Program
Inconsistent and inaccurate information prevented us from determining the overall impact
staffing shortages could have on the 2006 Filing Season. The Field Assistance Office does not
maintain an overall list or database of TACs providing the number of assistors, hours and days of
operation, and services offered at each TAC. Instead, it relies on each Area Director and
responsible analyst to maintain the information. A compilation and analysis of this information
from separate lists showed the data are unreliable, inconsistent, and inaccurate.
To determine whether the Field Assistance Office is ready for the 2006 Filing Season, we asked
for a list of all open TACs, the number of TACs with 2 or fewer assistors, the services provided
by each of the 400 TACs, and each TAC’s hours of operation. The Field Assistance Office was
able to provide an accurate list of open TACs. It also provided a list of TACs with two or fewer
assistors and a list of TACs that do not accept cash payments. The Field Assistance Office could
not provide a list of TACs that did not prepare Federal tax returns or State tax returns. In
addition, in response to our request for a list of each TAC’s hours of operation, we were advised
to go to IRS.gov and click on each State to identify each TAC’s hours.
Approximately 196 (49 percent) of the 400 TACs are staffed with 2 or fewer assistors. In
addition, 52 (13 percent) had 1 assistor assigned and 16 (4 percent) did not have any assistors
assigned. The IRS uses employees from other TACs to travel to the TACs that do not have
permanent assistors assigned. When a TAC has only one or two assistors, the hours of operation
and the services it can provide taxpayers could be limited. For example, to reduce the potential
for fraud or embezzlement, employees that accept cash payments should not have the ability to
also adjust taxpayer accounts using the Integrated Data Retrieval System.11 Therefore, if a TAC

10
   Kiosks consist of a computer processing unit, touch-screen monitor, and printer.
11
   This is the IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
                                                                                                           Page 12
                   The Field Assistance Office Has Taken Appropriate Actions
                    to Plan for the 2006 Filing Season, but Challenges Remain
                           for the Taxpayer Assistance Center Program



has only one assistor, that assistor can either accept cash payments or have the ability to adjust a
taxpayer’s account.
Accepting payments and making adjustments to taxpayer accounts are standard services all
TACs are supposed to offer. To deviate from the standard services, TAC managers can submit a
request for an exception to the Field Assistance Office Director outlining the circumstances that
necessitate a decision. The Program Letter did state that, for TACs with only one assistor, Area
Directors may request an exception to the requirement that the TAC offer tax return preparation
assistance. However, the Program Letter and the Internal Revenue Manual did not provide
guidance for exceptions from accepting cash. We asked for the criteria to determine if the
deviations were appropriate but were informed no criteria existed. We were advised that
decisions are made on a case-by-case basis.
To validate the lists the Field Assistance Office provided, we sent a survey to the group
managers of all 400 TACs and asked them to answer questions such as, “Is your TAC exempt
from accepting cash or preparing Federal and State tax returns?” and “What days of the week
and office hours are your TACs open?” We compared the results of the survey to the lists
provided, but we could not determine with certainty which TACs did not accept cash payments
or did not prepare Federal and State tax returns. Based on this comparison, it appears services
may be limited in a number of TACs during the 2006 Filing Season.
•   At least 47 TACs (12 percent) do not accept cash payments.
    The Field Assistance Office provided a list of 49 TACs that had requested deviations from
    taking cash payments. A list compiled from our survey shows 47 TACs do not take cash
    payments. There were 14 discrepancies between the 2 lists. Some TACs listed on the Field
    Assistance Office list are not on the survey list, while others are on the survey list and not on
    the Field Assistance Office list.
    Although the Field Assistance Office maintains a list of the TACs granted exceptions to
    taking cash payments, there is no guidance on how to request the exception or the criteria for
    granting one. Some TACs were accepting cash when the Field Assistance Office had granted
    them an exception, while others were not accepting cash but had not asked for an exception.
•   At least 33 (8 percent) TACs do not prepare Federal tax returns. Not all will assist in
    the preparation of State tax returns.
    The Field Assistance Office does not maintain a list of the TACs granted exceptions to
    preparing tax returns. To our survey, managers responded that 33 TACs do not prepare
    Federal tax returns. However, there are 52 TACs with only 1 assistor assigned and 16 TACs
    with no assistors assigned. At the time of our testing, it was not clear if these TACs should
    be exempted from preparing tax returns, but a request for an exception had not been
    submitted by the Area Director.


                                                                                             Page 13
                       The Field Assistance Office Has Taken Appropriate Actions
                        to Plan for the 2006 Filing Season, but Challenges Remain
                               for the Taxpayer Assistance Center Program



      The TACs are to prepare and file current year individual tax returns electronically. Area
      Directors may request an exception to this requirement for small offices (those with fewer
      than two assistors) by submitting the required information to the Field Assistance Office
      Director before the filing season begins.
      In addition, our survey showed that not all TACs prepare State tax returns. TAC assistors
      may prepare a State tax return in conjunction with a Federal tax return using the same income
      and schedule limits applicable to the Federal tax return. The Field Assistance Office does not
      maintain a list of TACs that assist in preparing State tax returns. The results of our survey
      indicate the services provided are inconsistent. Some TACs located within the same State
      prepared State tax returns, while others did not.
•     At least 21 (5 percent) TACs are open part time and are not open the standard hours of
      operation.
      The Program Letter states that, during the filing season, full-time TACs are expected to be
      open from 8:30 a.m. until 4:30 p.m. Monday through Friday. Further, part-time TACs
      (TACs open fewer than 5 days a week) are to be open from 8:30 a.m. until 4:30 p.m. on the
      days they are scheduled to be open during the filing season.
      The Field Assistance Office provided a list of 21 part-time TACs; 7 (33 percent) are not open
      the standard hours of operation (8:30 a.m. to 4:30 p.m.) during the filing season. Instead,
      their hours vary, from 8:30 a.m. to 3:30 p.m. and 9:30 a.m. to 3 p.m. In addition, the hours of
      operation for five TACs did not match the hours posted on IRS.gov. Responses to our survey
      showed there are 42 part-time TACs. Of the 42, 30 (71 percent) were not open the standard
      days (Monday through Friday) and 17 (40 percent) were not open the standard hours.
The lack of accurate and complete management information hinders the Field Assistance
Office’s ability to provide effective management oversight. Communication and information is
essential to run and control any operation. Standards for Internal Control in the Federal
Government state for an entity to run and control its operations, it must have relevant, reliable,
and timely communications relating to internal as well as external events.12 Information is
needed to achieve all of its objectives. In addition, effective internal controls are necessary to
ensure actions are taken to address areas of risk. Controls should be designed to help ensure the
completeness, accuracy, authorization, and validity of all transactions. Internal control systems
need to be monitored–through ongoing monitoring activities, separate evaluations, or a
combination of the two.




12
     Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                     Page 14
                    The Field Assistance Office Has Taken Appropriate Actions
                     to Plan for the 2006 Filing Season, but Challenges Remain
                            for the Taxpayer Assistance Center Program



Both the TIGTA and the Government Accountability Office have expressed concerns that data
from the Field Assistance Office’s management information systems are not always accurate.13
The Field Assistance Office is working on its management information system. In Fiscal
Year 2006, it is testing a new system, the Field Assistance Management Information System
(FAMIS). It anticipates the FAMIS will improve the ability of management to monitor
workload, adjust staffing, and accurately track resource use at the TAC, Group, Territory,14 Area,
and National levels. Additionally, the Director, Field Assistance Office, stated it is a priority to
deliver an accurate and reliable management information system.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 2: Develop consistent criteria for granting exceptions to standard services
and update the Internal Revenue Manual with the criteria and procedures for obtaining the
exceptions.
        Management’s Response: IRS management agreed with this recommendation.
        They stated that services provided in the TACs are standardized, with three exceptions –
        need-based return preparation, State return preparation, and receipt of cash payments.
        The IRS believes the Internal Revenue Manual is clear on exceptions from preparing
        Federal and State tax returns, but is not sufficiently clear on exceptions from accepting
        cash payments. The IRS will update the Internal Revenue Manual to provide greater
        specificity on the criteria and procedures for obtaining exceptions.
Recommendation 3: Develop or modify a management information system to ensure it has
the information needed to provide an overview of the TAC Program and provide a control to
ensure the TAC Program is providing the appropriate services to meet the Field Assistance
Office’s objectives and goals. The system should include a list of open TACs, including, for
each TAC, the number of assistors and screeners assigned, hours of operation, and services
provided. Procedures should also be developed to ensure the information is current and accurate.
        Management’s Response: IRS management agreed with this recommendation,
        which we provided during the course of the audit, and took immediate corrective action.
        The IRS.gov web site is the official system used to capture open TACs, hours of
        operation, and services provided. The IRS controls accuracy by requiring the Area
        Director to provide prior approval for any change request. While the services provided at
        each TAC are standardized, there are three exceptions (receipt of cash payments,


13
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005) and Tax Administration: IRS Improved Performance in the 2004 Filing
Season, But Better Data on the Quality of Some Services Are Needed (GAO 05-67, dated November 2004).
14
   A term used to define a group of TAC offices located within each of the five geographical Areas.
                                                                                                   Page 15
                    The Field Assistance Office Has Taken Appropriate Actions
                     to Plan for the 2006 Filing Season, but Challenges Remain
                            for the Taxpayer Assistance Center Program



         need-based return preparation, and State return preparation). The IRS modified the list of
         services for each TAC shown on IRS.gov to indicate when it is not providing one of these
         three services. Area Directors will certify quarterly to Field Assistance Headquarters that
         the information is consistent and correct.

The Field Assistance Office Does Not Ensure Taxpayers Know When
Taxpayer Assistance Centers Limit Services
The IRS makes general statements on standard services offered at the TACs. Standard services
include adjusting a taxpayer’s tax account, accepting payments, helping prepare income tax
returns, and answering tax questions. For example, when a taxpayer calls the IRS toll-free
telephone line about a TAC, he or she is advised of the address, local telephone number, and
hours of operation. When a taxpayer goes to IRS.gov to locate a TAC, he or she:
First.      Clicks “Contact IRS” at the top of the IRS Home Page.
Second.     Clicks “Contact My Local Office.” See Figure 4.
                        Figure 4: Contact My Local Office Webpage




                 Source: IRS.gov.

                                                                                            Page 16
                  The Field Assistance Office Has Taken Appropriate Actions
                   to Plan for the 2006 Filing Season, but Challenges Remain
                          for the Taxpayer Assistance Center Program



Third.   Clicks on the appropriate State. At the top of the webpage, the same synopsis is
         provided for all States. At the bottom of the page is a list of TACs in the selected
         State, along with the address, local telephone number, and hours of operation of each
         TAC. See Figure 5.
                            Figure 5: Face-to-Face Tax Help




         Source: IRS.gov.


                                                                                       Page 17
                   The Field Assistance Office Has Taken Appropriate Actions
                    to Plan for the 2006 Filing Season, but Challenges Remain
                           for the Taxpayer Assistance Center Program



Although the IRS does publicize when standard hours of operation are limited, it does not
publicize when a TAC limits its services. The IRS’ recent marketing strategies have generally
focused on those services to which it wants to steer taxpayers; for example, its electronic services
and electronic filing. Therefore, the IRS does not specifically promote TAC services. However,
when advising taxpayers of the services offered at the TACs, the IRS should ensure taxpayers are
aware of when a TAC does not offer standard services or hours of operation. Otherwise,
taxpayers are burdened by unnecessary trips to the TACs and assistors’ time is used to explain
that they do not provide the services needed by the taxpayers.

Recommendation
Recommendation 4: Once a system is in place to capture the TACs’ hours of operation and
services and controls are in place to ensure the data are accurate and current, the Commissioner,
W&I Division, should provide this information for taxpayers that call the IRS toll-free telephone
lines or access IRS.gov.
       Management’s Response: IRS management agreed with this recommendation,
       which we provided during the course of the audit, and took immediate corrective action.
       Taxpayers accessing IRS.gov are provided TAC hours of operation and services
       provided. Taxpayers are also informed of any services the IRS does not offer in a TAC
       because of an approved exception. This same information is available to the assistors
       who serve taxpayers on the IRS toll-free telephone lines.




                                                                                           Page 18
                      The Field Assistance Office Has Taken Appropriate Actions
                       to Plan for the 2006 Filing Season, but Challenges Remain
                              for the Taxpayer Assistance Center Program



                                                                                                    Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the Wage and Investment
Division Field Assistance Office adequately planned for the 2006 Filing Season1 and considered
and accounted for the effects of Hurricanes Katrina and Rita during the filing season
preparations. To accomplish these objectives, we:
I.       Reviewed guidelines and documents used to ensure 2006 Filing Season readiness and
         discussed filing season readiness with appropriate Internal Revenue Service (IRS)
         officials.
II.      Determined if the Field Assistance Office identified the appropriate objectives and goals
         for the 2006 Filing Season, specifically for those areas affected by Hurricanes Katrina
         and Rita and the recent suspension of efforts to close selected Taxpayer Assistance
         Centers (TAC).2
         A. Discussed with appropriate Field Assistance Office executives the objectives and
            goals for the 2006 Filing Season and the process used to develop the Fiscal Year 2006
            Workplan.
         B. Determined if the Field Assistance Office has appropriately identified all areas most
            affected by Hurricanes Katrina and Rita to ensure appropriate coverage in those areas.
III.     Determined what services the TACs will offer for the 2006 Filing Season and if the
         services are sufficient considering Hurricanes Katrina and Rita issues, including the use
         of alternate sites.
IV.      Determined if the Field Assistance Office has sufficient staffing for the 2006 Filing
         Season.
         A. Reviewed the Workplan for reasonableness and held discussions with management on
            the process used to determine which TACs to staff and how many assistors to staff
            per TAC.
         B. Determined if the Field Assistance Office has appropriately identified the TACs
            losing staff to ensure appropriate coverage in those areas and evaluated contingency

1
  The period from January through mid-April when most individual income tax returns are filed.
2
  IRS employees that work in the TACs provide face-to-face assistance to customers by interpreting tax laws and
regulations, preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments,
and providing various other services designed to minimize the burden on taxpayers in satisfying their tax
obligations.
                                                                                                            Page 19
                 The Field Assistance Office Has Taken Appropriate Actions
                  to Plan for the 2006 Filing Season, but Challenges Remain
                         for the Taxpayer Assistance Center Program



         plans and procedures to ensure the TACs are (remain) sufficiently staffed during the
         2006 Filing Season.
V.    Determined if the Field Assistance Office has ensured all staff are adequately trained and,
      if not, what contingency plans are in place.
      A. Discussed with appropriate Field Assistance Office officials the procedures for
         ensuring all assistors, including employees who might be detailed to the TACs, have
         had training prior to the start of the 2006 Filing Season.
      B. Reviewed the overall Fiscal Year 2006 training plan and discussed it with appropriate
         Field Assistance Office officials to determine if the Field Assistance Office has a
         process to ensure all employees are trained and certified to answer taxpayer questions
         and provide tax return preparation assistance.
      C. Reviewed training materials to determine if new laws and procedures were included.
VI.   Determined if all tools used by TAC assistors were updated to include new tax laws and
      procedures, particularly those dealing with Hurricanes Katrina and Rita.




                                                                                         Page 20
                 The Field Assistance Office Has Taken Appropriate Actions
                  to Plan for the 2006 Filing Season, but Challenges Remain
                         for the Taxpayer Assistance Center Program



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta Cook, Director
Frank Jones, Audit Manager
Deborah Drain, Lead Auditor
Ken Carlson, Senior Auditor
Jackie Forbus, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jean Bell, Auditor
Jerry Douglas, Auditor
Andrea Hayes, Auditor
Sylvia Sloan-Copeland, Auditor
Geraldine Vaughn, Auditor




                                                                                   Page 21
                 The Field Assistance Office Has Taken Appropriate Actions
                  to Plan for the 2006 Filing Season, but Challenges Remain
                         for the Taxpayer Assistance Center Program



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 22
     The Field Assistance Office Has Taken Appropriate Actions
      to Plan for the 2006 Filing Season, but Challenges Remain
             for the Taxpayer Assistance Center Program



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 23
The Field Assistance Office Has Taken Appropriate Actions
 to Plan for the 2006 Filing Season, but Challenges Remain
        for the Taxpayer Assistance Center Program




                                                       Page 24
The Field Assistance Office Has Taken Appropriate Actions
 to Plan for the 2006 Filing Season, but Challenges Remain
        for the Taxpayer Assistance Center Program




                                                       Page 25
The Field Assistance Office Has Taken Appropriate Actions
 to Plan for the 2006 Filing Season, but Challenges Remain
        for the Taxpayer Assistance Center Program




                                                       Page 26
The Field Assistance Office Has Taken Appropriate Actions
 to Plan for the 2006 Filing Season, but Challenges Remain
        for the Taxpayer Assistance Center Program




                                                       Page 27
The Field Assistance Office Has Taken Appropriate Actions
 to Plan for the 2006 Filing Season, but Challenges Remain
        for the Taxpayer Assistance Center Program




                                                       Page 28
